Office of Inspector General


      July 21, 2005

      MEMORANDUM

      TO:                      M/FM/LM Supervisor, Acting Chief William Fuller Jr.

      FROM:                    IG/A/PA Director, Nathan S. Lokos /s/

      SUBJECT:                 Memorandum Regarding the Calculation and Collection of U.S.
                               Treasury Interest on the Development Credit Authority Guarantee
                               Financing Account (Report No. 9-000-05-001-S)


      This memorandum transmits our finding and recommendations regarding the need to
      calculate and collect interest from the U.S. Treasury on the Development Credit
      Authority (DCA) financing account. Your comments on our draft memorandum were
      considered and are included as an attachment to this final memorandum.

      This memorandum includes two recommendations.                  Recommendation No. 1
      recommends that USAID calculate and collect the interest due to USAID from the U.S.
      Treasury on its guarantee financing account. We estimate that USAID will save
      approximately $435,000 as a result of collecting this interest from Treasury and USAID
      management concurs with this amount. Recommendation No. 2 recommends that
      USAID implement systems and procedures to ensure that future interest is calculated and
      collected in a timely manner. Management decisions have been reached on both
      recommendations.      Please provide documentation supporting final action on
      Recommendations No. 1 and 2 to USAID’s Office of Management Planning and
      Innovation.

      This memorandum is not an audit report. The finding was developed during the survey
      phase of our work on USAID’s DCA. We are issuing this memorandum because our
      summary report for the worldwide effort will not be issued until all participating Regional
      Inspector General’s reports have been completed, most likely in the summer of 2006.
      We believe that these recommendations should be brought to your attention and acted
      upon before that time.

      I want to express my sincere appreciation for the cooperation and courtesy extended to
      my staff during this work.

      CC: M/FM/LM Eirdis Davis




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
BACKGROUND
The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act of 1961, as amended. The DCA is designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling
to lend funds to a particular sector or borrower(s). DCA credit guarantees encourage
commercial banks to finance targeted development projects that otherwise would not
have been funded, encourage local private-sector lending, and stimulate the
development of local capital markets. Guarantees typically cover up to 50 percent of a
loan.

When a project is identified and a Mission has made a decision to use a DCA
agreement, funds are transferred from relevant appropriations to the DCA program
account. Once the proposed agreement is approved by USAID’s Credit Review Board
and the Action Memo is approved by USAID’s CFO, the Mission obligates funds.1 In
some cases, lenders disburse 100 percent of the loans immediately. In other cases,
lenders disburse loans over the life of the agreement. On a semi-annual basis, USAID
disburses funds from the program account obligation and deposits corresponding
amounts into the financing account. These “subsidy outlays” are made based on a
calculation including the credit subsidy amount (see footnote 1), the value of loans
disbursed by lenders, and the total cumulative disbursements allowed per each
agreement. In addition to the financing account receiving the subsidy outlays, the
financing account:

    •   Receives origination and utilization fees paid by the lenders.

    •   Disburses claim payments, if any, and receives related recoveries.

    •   Experiences upward and downward adjustments based on annual re-estimates
        of subsidies.

U.S. Treasury financing accounts are unique in that they earn annual interest from the
U.S. Treasury which, together with the existing balances, is available to USAID to pay
future claims.


DISCUSSION
OMB Circular A-11, Section 185, states that 1) the basic purpose of a guarantee
financing account is to accumulate funds to finance future default costs and 2) the
balance of the financing account earns interest at the same rate as the discount rate



1
 The obligated funds, called the “credit subsidy amount”, is initially calculated and then re-
estimated over the life of the underlying loans, based on the Office of Management and Budget
(OMB) risk models, using the net present value of cash flows method. The credit subsidy amount
is calculated by the Office of Development Credit (ODC), reviewed by USAID’s Credit Review
Board, and approved by USAID’s Chief Financial Officer.




                                                                                            1
used to calculate the subsidy cost. The Circular also states that each agency is
responsible for calculating the interest income at the end of each year.2

However, despite this requirement, USAID has not calculated, billed or collected interest
on the DCA financing account. In the absence of an automated system to calculate the
interest due from Treasury, USAID M/FM/LM staff had attempted to manually calculate
interest due, by reconciling the DCA cash flows by cohort year—the year in which the
guarantee agreement was signed and the related subsidy cost was obligated—using
Excel, but were unable to do so.3

The Office of Financial Management/Loan Management Division (M/FM/LM) estimates
that the interest earned through September 30, 2004 is approximately $435,000. As the
cash balances in the financing account have grown as the program expanded, interest
due at September 30, 2005 is expected to be significantly higher. While M/FM/LM staff
had recognized the importance of collecting the interest and had met with OMB to
discuss the issue, at the time of our survey work, M/FM/LM staff were focused on other
priorities.

As a result of this situation, funds approximating $435,000 that should be available to
pay guarantee claims have not been collected from Treasury and made available to
USAID. Accordingly, we are making the following recommendations.

        Recommendation No. 1: We recommend that the Office of Financial
        Management/Loan Management Division calculate and collect the
        interest due to USAID from the U.S. Treasury on its guarantee financing
        account.

        Recommendation No. 2: We recommend that the Office of Financial
        Management/Loan Management Division implement systems and
        procedures to ensure that future interest is calculated and collected in a
        timely manner.

EVALUATION OF MANAGEMENT COMMENTS
USAID management concurred with our recommendations and indicated that M/FM/LM
is in the process of calculating the interest income due USAID. Management also
indicated that the interest calculations would be submitted to Treasury for payment to
USAID’s account.       Accordingly, a management decision has been reached on
Recommendation No. 1.



2
  When calculating interest income, the interest rate for cash accumulations is determined by the
date that the commercial lender disburses the loan being guaranteed. In addition, estimates for
the fourth quarter can be used, adjusting this estimate as actual lender data is accumulated.
3
 An automated system to handle this calculation was not built into USAID’s core financial
accounting system (Phoenix) because at the time Phoenix was being developed, USAID did not
have the legislative authority to extend DCA guarantees and a similar program, the Micro and
Small Enterprise Development program, was winding down. Under these circumstances, an
automated system was not considered a priority.

                                                                                                2
In addition, management stated that a working group had been established to address
the modifications to Phoenix that would be necessary to track financing account
transactions on a cohort basis, which would facilitate future interest calculations. We
believe that this illustrates management’s commitment to ensuring that future interest is
calculated and collected in a timely manner. Accordingly, we believe a management
decision has been reached on Recommendation No. 2. However, before final action can
be achieved, we believe that USAID must complete the above mentioned modifications
to Phoenix and develop the necessary policies and procedures to ensure that interest
income is calculated and collected.

Management’s comments are included in their entirety in the attachment to this
memorandum.




                                                                                       3
                                                              July 8, 2005

MEMORANDUM
TO:                    IG/A/PA Director, Nathan S. Lokos

FROM:                 M/FM/LMD Acting Chief William F. Fuller, Jr. /s/

SUBJECT:            Management Comments to Draft Memorandum Regarding
                     Calculation and Collection of US Treasury Interest on the
                     Development Credit Authority Guarantee Financing Account
                     (Report No. 9-000-05-00X-S)

REF:                   a) NLokos/WFuller Memo dated 06/23/2005

       Thank you for the opportunity to respond to the subject draft memorandum. We
appreciate your analysis on the Development Credit Authority (DCA) Guarantee Financing
Account Treasury Interest Process. As noted by the Office of Management and Budget (OMB)
in February 2005, the demands placed on Federal Agencies to maintain specialized COHORT
accounting are great. Irregardless, we agree with this responsibility and concur with the two-part
proposed audit recommendation as outlined below.

RECOMMENDATION No. 1: We recommend that the Office of Financial Management/Loan
Management Division: (1) calculate and collect the interest due to USAID from the U.S.
Treasury on its guarantee financing account, and (2) implement systems and procedures to
ensure that future interest is calculated and collected in a timely manner.

MANAGEMENT COMMENTS:

     (1) FM/LMD concurs that the estimated interest earned through September 30, 2004 was
         approximately $435,000. FM/LMD is in the process of retroactively calculating the
         Treasury Financing Fund Balance 72X4266 by COHORT balances by each fiscal year
         end. These balances will be used as inputs into the OMB Interest Calculator to calculate
         the total interest income due to USAID from FY00 to FY05. Interest calculations will be
         submitted to the Treasury not later than the end of September 2005 for payment to
         USAID’s Account in FY06.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
   (2) A JFMIP working group, headed by the Deputy to M/FM/FS, has been established to
       address required modifications to Phoenix to establish fields which will enable the
       tracking of financing account fund balance transactions on a COHORT basis. Going
       forward, this will facilitate the timely calculation of annual interest income due to the
       DCA Financing Account. We anticipate this will occur during fiscal year 2006.

        In closing, we will continue to work towards improving our management responsibility
of the guarantee financing account.



       cc:    M/FM/LM Eirdis Davis
              M/FM/CAR Don Douglass
